STATE OF MINNESOTA

OFFICE OF THE ATTORNEY GENERAL

 

SUITE 1100
445 MINNESOTA STREET
KEITH ELLISON ST. PAUL, MN 55101-2128
ATTORNEY GENERAL TELEPHONE: (651) 282-5700
October 30, 2019
Clerk of Court VIA E-FILING AND U.S. MAIL

The Supreme Court of the United States
One First Street, NE
Washington, DC 20543

Re: Kimberly Watso, et al. v. Jodi Harpstead, et al.
Supreme Court Case No. 19-550

Dear Clerk:

Enclosed in the above-entitled matter please find an executed Waiver on behalf of Jodi
Harpstead, in her official capacity as Commissioner of the Minnesota Department of Human
Services.

Please let me know if there are questions. Thank you.

Sincerely,
a 2 eS SS

AARON WINTER
Assistant Attorney General
(651) 757-1453 (Voice)

Attorney for Jodi Harpstead, in Her Official
Capacity as Commissioner of the Department of
Human Services

Ene.

cc/enc.: Robert Sirianni, Jr., Counsel for Petitioner
James Andreen, Counsel for Scott County
Joseph Plumber, Counsel for Judge Mary Ringhand and Tribal Court of the Red
Lake Band of Chippewa Indians
Richard Duncan, Joshua Peterson, and Gregory Paulson, Counsel. for Judge John
Jacobson and Tribal Court of the Shakopee Mdewakanton Sioux (Dakota)
Community

Toll Free Line: (800) 657-3787 * Minnesota Relay: (800) 627-3529 + www.ag.state.mn.us
© Printed on 30% Postconsumer Material Paper

sBz20

 
